HHS/OIG, Audit -"Commonwealth of Pennsylvania, Efforts to Account For and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Program Funds,"(A-03-03-00382)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Commonwealth of Pennsylvania, Efforts to Account For and Monitor Sub-Recipients' Use of  Bioterrorism Hospital
Preparedness Planning Program Funds," (A-03-03-00382)
October 15, 2003
Complete
Text of Report is available in PDF format (302 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Pennsylvania Department of Health (State agency) properly recorded,
summarized and reported bioterrorism preparedness transactions in accordance with the terms and conditions of the cooperative
agreements and whether the State agency has established controls and procedures to monitor sub-recipient expenditures of
Health Resources and Services Administration funds.  We determined that the State agency generally accounted for Program
funds in accordance with the terms and conditions of the cooperative agreement and applicable departmental regulations
and guidelines.  However, the State agency did not segregate expenditures by phase, within phase, or by priority area.
Our review showed that the State agency was in compliance with budget restrictions.  However, State agency officials
indicated that the fee paid to the Hospital and Healthsystem Association of Pennsylvania was charged to Phase II funding
and allocated to hospitals.  The State agency had a reporting system to track and monitor sub-recipient activities.  There
was no site visit component as part of the reporting system developed by the State agency.